No. 21-3213

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

May 18, 2021
DEBORAH S. HUNT, Clerk

VINCENT JOHNSON

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
TIM SHOOP, WARDEN,
Respondent-Appellee.

ORDER

BEFORE: NORRIS, WHITE, and BUSH, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

•APPENDIX A

NOT RECOMMENDED FOR PUBLICATION
No. 21-3213
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
VINCENT JOHNSON,

Apr 05, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)

Petitioner-Appellant,
v.

)
)
)
)

TIM SHOOP, Warden,
Respondent-Appellee.

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

)
)
)

ORDER

Before: NORRIS, WHITE, and BUSH, Circuit Judges.
This matter is before the court upon initial consideration to determine whether appeal
No. 21-3213 was taken from an appealable order.
In 2015, Vincent Johnson filed a 28 U.S.C. § 2254 habeas corpus petition that was denied
on the merits on September 15, 2016. On September 26, 2016, the district court denied Johnson’s
motion for a certificate of appealability. This court declined to issue a certificate of appealability.
Johnson v. Jenkins, No. 16-4076 (6th Cir. Apr. 27, 2017) (order).
On August 8, 2017, Johnson sought reconsideration, pursuant to Federal Rule of Civil
Procedure 60(b)(6), of the district court’s September 26, 2016, opinion and order denying his
motion for a certificate of appealability. On August 17, 2017, the district court denied the Rule
60(b) motion. On December 22, 2020, Johnson filed another motion, couched as an independent
APPENDIX B-

No. 21-3213
-2-

action under Rule 60(d), again attacking the prior denial of a certificate of appealability. The
district court denied that motion in an order entered on February 3, 2021. On February 24, 2021,
Johnson filed a notice of appeal from the February 3, 2021 order.
This appeal, No. 21-3213, is not properly before this court. In substance, Johnson’s
December 22, 2020, motion sought a certificate of appealability. And an order ruling on a
certificate of appealability is not appealable. Sims v. United States, 244 F.3d 509, 509 (6th Cir.
2001) (order).
Here, Johnson has applied for and been denied a certificate of appealability in the appeal
of the underlying judgment denying his habeas corpus petition.
It is ordered that appeal No. 21-3213 is DISMISSED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 2:15-cv-00971-JLG-EPD Doc#: 38 Filed: 02/03/21 Page: 1 of 4 PAGEID #: 108*5

---- IN THE UNTIED STATES DISTRICT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
VINCENT JOHNSON,
CASE NO. 2:15-CV-00971
JUDGE JAMES L. GRAHAM
Magistrate Judge Elizabeth A. Preston Deavers

Petitioner,
v.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.

OPINION AND ORDER
Petitioner has filed what has been docketed as a Motion for Reconsideration of the
Court’s August 17, 2017, Opinion and Order denying Petitioner’s Motion to Set Aside Judgment.
(EC.F No, 35.) Petitioner requests reconsideration of the denial of his re< (uest for a certificate of
appealability in view of Buck v. Davis, - U.S. -, 137 S.Ct. 759 (2017). Petitioner complains
that the United States Court of Appeals for the Sixth Circuit improperly denied his request for a
certificate of appealability and has refused to reconsider that ruling. Petitioner maintains that he
is the victim of a manifest miscarriage ofjustice, because his convictions rely on the false or
misleading testimony of the alleged victim and improper admission of DNA evidence.
i

.

This Court has already rejected Petitioner’s prior motion for reconsideration of the denial
of his request for a certificate of appealability based on Buck (Opinion and Order, ECF No. 27.)
Petitioner has provided no new basis for reconsideration of that decision. Further, the record is
without support for Petitioner’s claim that he is actually innocent. See Souter v. Jones, 395 F.3d
577. 602 (6th Cir. 2005).
The Sixth Circuit has “required a petitioner arguing actual innocence to produce a
Supreme Court or Sixth Circuit precedent that establishes that ‘he now stands
APPENDIX C

Case: 2:15-cv-00971-JLG-EPD Doc #: 38 Filed: 02/03/21 Page: 2 of 4 PAGL-.ID //: 1080

convicted of a crime that the law_does_not deem _criminal. 'U_\P,enney v.-United.
States, 870 F.3d 459. 463 (6th Cir. 2017)] (quoting Phillips v. United States, 734
. 2013)). Additionally, a petitioner must show that “in
light of all the evidence, it is more likely than not that no reasonable juror would
have convicted him.” Bousley v. United States, 523 U.S. 614. 623 (1998).
United States v. Bolze, No. 3:09-CR-93-TAV-DCP-l, 2020 WE 6151560. at * 3 (E.D. Term. Oct.
20, 2020). Moreover, the Sixth Circuit has denied Petitioner’s request for a certificate of
appealability and motion for authorization to file a successive habeas corpus petition on the basis
that the admission DNA evidence violated his right to due process and equal protection. (ECF
Nos. 25, 34.) This Court is without the authority to alter a decision of the United States Court of
Appeals for the Sixth Circuit. As previously discussed,
once this Court has made a decision regarding appealability and the
matter is addressed de novo by the Sixth Circuit, this Court's
decision becomes moot. And the Sixth Circuit's decision regarding
whether a certificate of appealability should or should not issue
becomes the law of the case and must be followep by this Court.
Therefore, Cook cannot seek relief from this Court based upon a
claim that an incorrect decision was made on issuance of a certificate
of appealability. If he clams the error was committed by this Court,
the issue is moot because it was addressed subsequently by the Sixth
Circuit de novo. Conversely, if he claims that the Sixth Circuit erred
in not issuing a certificate of appealability, he is making a claim
beyond the reach of this Court unless and until the Sixth Circuit
permits a second or successive motion to be filed.
United States v. Cook, No. 5:06-183-DCR, 2017 WL 2872369. at *3 (E.D. Ky. July 5, 2017); see
!

>rd,

change a decision of the Sixth Circuit.”); Dilingham v. Warden, No. l:13-cv-468, 2017 WL
256^254, at *2 (S.D. Ohio June 14, 2017) (“[W]e have no power to issue a certificate when the
court of appeals has determined on the same record that was before us that a certificate is not
warranted.”).

2

Case: 2:15-cv-00971-JLG-EPD Doc #: 38 Filed: 02/03/21 Page: 3 ot 4 PAGEJD #: 1087

For all of the foregoing reasons, Petitioner’s most recent Motion for Reconsideration (ECF
No. 35) is DENIED.
Petitioner has filed a Motion for a Certificate of Appealability and to reopen Case No. 164076 in the Court of Appeals, and Motion for Leave to Appeal in forma pauperis. (ECF Nos. 36,
37.) These motions were originally filed under a new case number, but they were later properly
filed in the instant case as relating to Petitioner’s motion for reconsideration and his request to
reopen the matters previously litigated here. This court has no authority to reopen Petitioner’s
prior appeal in Case No. 16-4076. As to Petitioner’s requests for leave to proceed in forma
pauperis and for a certificate of appealability, the court notes that “[i]n contrast to an ordinary
civil litigant, a state prisoner who seeks a writ of habeas corpus in federal court holds no
automatic right to appeal from an adverse decision by a district court.” Jordan v. Fisher, 576
] J.S. 1071. -, 135 S.Ct. 2647. 2650 (2015); 28 U.S.C. $ 22i 3(c)(1) (requiring a habeas petitioner
to obtain a certificate of appealability in order to appeal). When a claim has been denied on the
merits, a certificate of appealability may issue only if the petitioner “has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. S 2253(c)(2). To make a substantial
showing of the denial of a constitutional right, a petitioner must show “that reasonable jurists
could debate whether (or, for that matter, agree that) the petition should have been resolved in a
!

different manner or that the issues presented were ‘adequate to deserve encouragement to
proceed further.’” Slack v. McDaniel, 529 U.S. 473. 484 (2000) (quoting Barefoot v. Estelle,
463 U.S. 880. 893. n. 4 (1983)). When a claim has been denied on procedural grounds, a
certificate of appealability may issue if the petitioner establishes that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional right, and

3

Case: 2:15-cv-00971-JLG-EPD Doc #: 38 Filed: 02/03/21 Page: 4 of 4 PAG FID ti: 1080

that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling. Id.
Reasonable jurists would not debate the denial of Petitioner’s Motion for
Reconsideration.

)(3). that an

appeal from this decision could not be taken in good faith. Petitioner’s Motion for Certificate of
Appealability and Motion for Leave to Appeal in forma pauperis (ECF Nos. 36, 37) therefore are
DENIED.
IT IS SO ORDERED.
Date: February 3, 2021
s/James L. Graham
JAMES L. GRAHAM
UNITED STATES DISTRICT JUDGE

I

4

Case: 2:15-cv-00971-JLG-EPD Doc #: 27 Filed: 08/17/17 Page: 1 of 3 PAGEID #: 966

—IN-THE-UNITED STATES DISTRICT—
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION

V--..
<*✓
t?
y

VINCENT JOHNSON,

>

CASE NO. 2:15-CV-00971
JUDGE JAMES L. GRAHAM
Magistrate Judge Elizabeth A. Preston Deavers

Petitioner,
v.

WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.
OPINION AND ORDER
On September 15, 2016, Judgment was entered dismissing the petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254. (ECF No. 19.) On September 26, 2016, the Court
issued an Opinion and Order denying the request for a certificate of appealability. (ECF No.
22.)

On April 27, 2017, the United States Court of Appeals for the Sixth Circuit denied

Petitioner’s application for a certificate of appealability. (ECF No. 25.) Petitioner has filed a
Motion to Set Aside Judgment. (ECF No. 26.) For the reasons that follow, the motion (ECF No.
26) is DENIED.
Petitioner seeks reconsideration pursuant to Rule 60(b)(6) of the Federal Rules of Civil
Procedure of the Court’s September 16, 2016, Opinion and Order denying his request for a
certificate of appealability.

Referring to Buck v. Davis, - U.S.

137 S.Ct. 759 (2017),

Petitioner contends that the Court improperly denied his request for a certificate of appealability.
Assuming that Petitioner’s motion may properly be addressed under Rule 60(b) {see
Gonzalez v. Crosby, 545 U.S. 524, 531 (2005) (Rule 60(b) cannot be used to circumvent the
limitations on the filing of successive habeas corpus petitions under 28 U.S.C. § 2244(b)(3)), the
record nonetheless fails to reflect that relief is warranted. “[T]he decision to grant Rule 60(b)(6)

-APPENDIX L

Case: 2:15-cv-00971-JLG-EPD Doc #: 27 Filed: 08/17/17 Page: 2 of 3 PAGEID #: 967

-relief-is-a-case-by-case-inquiry-that-requires-the-trial-court-to-intensively-balance-numerous
factors, including the competing policies of the finality of judgments and the incessant command
of the court's conscience that justice be done in light of all the facts.” Thompson v. Bell, 580
F.3d 423, 442 (6th Cir. 2009) (citing Blue Diamond Coal Co. v. Trustees of UMWA Combined
Benefits Fund, 249 F.3d 519, 529 (6th Cir. 2001)). Further, “public policy favoring finality of
judgments and termination of litigation” constrains relief under the provision of Rule 60(b);
“[particularly strict standards apply to motions made pursuant to Rule 60(b)(6), under which a
court may grant relief “ ‘only in exceptional or extraordinary circumstances’ where principles of
equity ‘mandate’ relief.” Franklin v. Jenkins, 839 F.3d 465, 472 (6th Cir. 2016) (citations
omitted). Such are not the circumstances here.
Petitioner maintains that the Court misapplied the standard governing the issuance of a
certificate of appealability, in view of Buck, 137 S.Ct. at 759. In Buck, “the Supreme Court held
a circuit court should not decide the merits on an application for a certificate of appealability, but
just the debatability question.” Dilingham v. Warden, No. 1:13-cv-468, 2017 WL 2569754, at *2
(S.D. Ohio June 14, 2017). “To put the merits question first, the Court said, is to decide the
merits of an appeal without jurisdiction to do so because appellate jurisdiction depends on there
being an issued certificate of appealability.” Id. However, Buck does not assist Petitioner here.
See id. (It is only in the Court of Appeals that “the appeaiability question comes first as heid in
Buck.”)-, see also United States v. Alford, No. 3:00-cr-065, 2017 WL 1734225, at *2 (S.D. Ohio
May 4, 2017) (concluding that Buck does not retroactively apply to cases on collateral review).
Moreover,
once this Court has made a decision regarding appealability and
the matter is addressed de novo by the Sixth Circuit, this Court's
decision becomes moot. And the Sixth Circuit's decision regarding
whether a certificate of appealability should or should not issue
2

Case: 2:15-cv-00971-JLG-EPD Doc #: 27 Filed: 08/17/17 Page: 3 of 3 PAGEID #: 968

becomes the law of the case and must be followed by this Court.
Therefore, Cook cannot seek relief from this Court based upon a
claim that an incorrect decision was made on issuance of a
certificate of appealability. If he clams the error was committed by
this Court, the issue is moot because it was addressed subsequently
by the Sixth Circuit de novo. Conversely, if he claims that the
Sixth Circuit erred in not issuing a certificate of appealability, he is
making a claim beyond the reach of this Court unless and until the
Sixth Circuit permits a second or successive motion to be filed.
United States v. Cook, No. 5:06-183-DCR, 2017 WL 2872369, at *3 (E.D. Ky. July 5, 2017); see
also United States v. Alford, 2017 WL 1734225, at *2 (“[TJhis Court does not have jurisdiction
to change, a decision of the Sixth Circuit.”); Dilingham, 2017 WL 2569754, at *2 (“[W]e have no
power to issue a certificate when the court of appeals has determined on the same record that was
before us that a certificate is not warranted.”).
Therefore, Petitioner’s Motion to Set Aside Judgment (ECF No. 26) is DENIED.
IT IS SO ORDERED.
Date: August 17, 2017
s/ James L. Graham
JAMES L. GRAHAM
United States District Judge

3

Case: 2:15-cv-00971-JLG-EPD Doc #: 22 Filed: 09/26/16 Page: 1 of 2 PAG El D #: 946

IN-T1IE UNITED STATES DISTRICT-COURTFOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
VINCENT JOHNSON,
CASE NO. 2:15-CV-00971
JUDGE JAMES L. GRAHAM
Magistrate Judge Elizabeth P. Deavers

Petitioner,
v.

WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.
OPINION AND ORDER
On September 15, 2016, Judgment was entered dismissing the instant petition for a writ
of habeas corpus pursuant to 28 U.S.C. § 2254. (ECF No. 19.) This matter is before the Court
on Petitioner’s September 21, 2016, Notice of Appeal (ECF No. 20), which the Court construes
as a request for a certificate of appealability. For the reasons that follow, Petitioner’s request for
a certificate of appealability is DENIED.
Petitioner challenges his convictions after a jury trial on two counts of rape, one count of
attempted rape, one count of kidnapping, one count of abduction, and one count of domestic
violence, with specifications. He asserts that the trial court abused its discretion by permitting
admission of DNA evidence, and that he thereby was denied due process and equal protection
(claim one); and that he was denied his right to grand jury findings due to an improper
amendment of the indictment (claim two). The Court dismissed both of Petitioner’s claims on
the merits.
“In contrast to an ordinary civil litigant, a state prisoner who seeks a writ of habeas
corpus in federal court holds no automatic right to appeal from an adverse decision by a district
court.”

Jordan v. Fisher, - U.S. ~. ~, 135 S.Ct. 2647, 2650 (2015); 28 U.S.C. §

APPENDIX P

Case: 2:15-cv-00971-JLG-EPD Doc #: 22 Filed: 09/26/16 Page: 2 of 2 PAG El D #: 947

2253(c)(l)(requiring a habeas petitioner to obtain a certificate of appealability in order to
appeal.) The petitioner must establish the substantial showing of the denial of a constitutional
right. 28 U.S.C. § 2253(c)(2). This standard is a codification of Barefoot v. Estelle, 463 U.S.
880 (1983). Slack v. McDaniel, 529 U.S. 473, 484 (2000) (recognizing codification of Barefoot
in 28 U.S.C. § 2253(c)(2)). To make a substantial showing of the denial of a constitutional right,
a petitioner must show “that reasonable jurists could debate whether (or, for that matter, agree
that) the petition should have been resolved in a different manner or that the issues presented
were ‘adequate to deserve encouragement to proceed further.’” Slack, 529 U.S. at 484 (quoting
Barefoot, 463 U.S., at 893 n. 4).
Petitioner has failed to meet this standard here. His claims plainly fail to warrant relief,
and he never presented claim one to the state courts as a federal constitutional issue, thereby
precluding relief in these proceedings. Reasonable jurists would not debate whether the Court
properly dismissed Petitioner’s claims on this basis.
Therefore, Petitioner’s request for a certificate of appealability is DENIED.
IT IS SO ORDERED.
Date: September 26, 2016

s/James L. Graham
JAMES L. GRAHAM
United States District Judge

2

Case: 2: J5-CV-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 1 of 18 PAGEID #: 904

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
VINCENT JOHNSON,
CASE NO 2:15-CV-00971
Judge James L. Graham
Magistrate Judge Elizabeth P. Deavers

Petitioner,
v.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.

REPORT AND RECOMMENDATION
Petitioner, a state prisoner, brings the instant petition for a writ of habeas corpus pursuant
to 28 U.S.C. § 2254. This matter is before the Court on the Petition, Respondent’s Return of
Writ, Petitioner’s Reply, Motions to Supplement, and Supplemental Memorandum (ECF No. JO14), and the exhibits of the parties.

For the reasons that follow, the Magistrate Judge

RECOMMENDS that this action be DISMISSED.
Facts and Procedural History
Petitioner was convicted after a jury trial in the Franklin County Court of Connnon Pleas
on two counts of rape, one count of attempted rape, one count of kidnapping, one count of
abduction, and one count of domestic violence, with specifications. {See ECF No. 9-1, PagelD#
c

68.) The state appellate court summarized the facts and procedural history of the case as
follows:
Appellant’s convictions pertain to an incident that occurred on
January 5, 2013 at the home appellant shared with his girlfriend,
F.C., and their child K.J. The following factual summary is taken
from the evidence adduced at appellant’s jury trial.
FC testified that she met appellant when she was 17 years old , and
their relationship proceeded beyond friendship after she turned 18.

APPENDIX Q

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 2 of 18 PAGEID #: 905

The two began living together shortly after they started dating and
F.C. became pregnant; however, during her pregnancy, their
relationship ended. Their child, K.J., was bom on June 7, 2002,
and appellant was incarcerated at that time. Appellant remained
incarcerated until March 2010 and, at that time, appellant began
living with FC. and K.J.
Regarding the events of January 5, 2013, F.C. testified that she,
appellant, K.J., and appellant’s nephew were at their apartment at
approximately 7:30 or 8:00 p.m. when appellant received a
telephone call from his brother, W.J. At some point in the
conversation, WJ told appellant that he had sex with F.C.
According to F.C., appellant “got very angry” and began “yelling,
screaming [and] questinging.” (Tr. 91.) F.C. initially denied the
allegations, but eventually admitted to appellant that she and W.J.
did have an affair. F.C. testified that after her admission, appellant
punched her along her cheek which caused her to fall. Appellant
then proceeded to kick, hit, and spit on F.C. and also called her
names and screamed at her. Thereafter, appellant grabbed F.C. “by
the fistfuls of hair” and dragged her down the stairs to the
basement. (Tr. 93.)
Once in the basement, appellant continued to kick, hit, and spit on
F.C. and then proceeded to urinate on her. F.C. testified that “[h]e
said he was going to pee on me like the dog that I was.” (Tr. 95.)
While in the basement, appellant forced F.C. to a couch and
attempted anal intercourse. When the attempt failed, appellant
pulled F.C. over and performed vaginal intercourse. Though
repeatedly telling him to stop, F.C. testified that appellant would
scream at her such things as “[s]hut up, bitch,” and “[i]s this how
my brother likes it?” (Tr. 99.) After ejaculating and telling F.C.
that he hoped she “got pregnant,” appellant went upstairs and left
F.C. in a bathroom in the basement. (Tr. 100.)
Utilizing appellant’s cell phone that he had previously thrown on
the basement floor, F.C. sent a text message to appellant’s sister,
asking her to call 911. After appellant returned to the basement, he
instructed F.C. to go upstairs and get “cleaned up.” (Tr. 104.)
Appellant then forced F.C. to the bedroom. F.C. sat on the floor
while appellant called various people and told them F.C. had slept
with W.J. F.C. testified:
At one point, he made me sit on the bed and talk to
his cousin and admit to his cousin that I had slept
with his brother, and he proceeded to hit me while
on the phone, talking to his cousin. When he got
2

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 3 of 18 PAGEID #: 906

.—off- of-the_phone _with _his_eousin,_he .grabbed _my_
head again and started, like, fistfuls of hair on either
side and banging my head against the bed, sitting
right on top of me.
F.C. also testified that, while in the bedroom, appellant forced her
to perform oral sex on him. According to F.C., “[h]e told me that
if 1 didn’t, that it really didn’t matter anymore, that it was pretty
much over, that I was going to do this.” (Tr. 109.) F.C. testified
that she “told him to please stop” and “[t]hink about what you’re
doing.” (Tr. 109.) Afterwards, appellant took some money from
F.C’s pants’ pocket and left the house. F.C. testified, “1 was
nervous, and I was shaking. I hit the “Talk” button. It started
ringing, and it was his cousin.” (Tr. 110.) F.C. testified that they
had a “conversation” and then she called 911. Appellant returned
as F.C. was still on the line with the 911 dispatcher. F.C testified
that upon his return, appellant appeared “a lot calmer” and
informed F.C. that he “couldn’t let anybody see [her] look like
this.” (Tr. 137.) After police arrived, appellant was placed in
handcuffs, and F.C. described the events, including the sexual
assaults, in her statement to the officers. F.C.’s injuries were
photographed, and F.C. went to the hospital where she underwent a
sexual assault examination. F.C. testified that she did not see her
child or nephew at any time during the incident and believes the
two children remained upstairs in K.J.’s bedroom the entire time.
On cross-examination, F.C. admitted that she had consensual sex
with appellant within 96 hours of the alleged sexual assault, but
was uncertain as to whether it was on Friday night or Saturday
morning before the incident.
K.J., who was 11 years old at the time of trial, testified that, on
January 5, 2013, appellant had been on the telephone and then told
K.J. and his cousin to go upstairs to K.J.’s room. While in his
room, K.J. heard a “loud thump” and heard F.C. “screaming” and
appellant “yeling.” (Tr. 183.) K.J. testified that he could only
make out appellant saying “[s]top lying.” (Tr. 183.) According to
K.J., this went on for “[a]bout a couple hours” and that it “got quiet
a little bit, and then it would start again.” (Tr. 184.) K.J. testified
that he left his room once to get his cousin a glass of water, but he
did not see anything. K.J. also testified that he next saw F.C. “after
it all - was all said and done,” and she had “a big bruise under her
eye and a couple bruises on her arms.” (Tr. 186-7.)
Columbus Police Detective David Bobbitt testified he hasked F.C.
whether she had any prior consensual sexual activity in the
previous 96 hours because “the current standard is 96 hours on
3

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 4 of 18 PAGEID #: 907

how far out that DNA can remain in the system where consensual
activity is relevant.” (Tr. 219.) According to Detective Bobbitt’s
report, F.C. reported the last consensual activity with appellant was
on “[t]he 4th of January, Friday afternoon.” (Tr. 221.)
Dr. Patricia Robitaille was the physician who treated F.C. at Mount
Carmel St. Ann’s Emergency Department. During the external
examination of F.C., Dr. Robitaille observed that F.C. “had
multiple bruises on her entire left cheek, multiple bruises on her
torso and all four extremities.” (Tr. 280.) F.C.’s vaginal and anal
examinations resulted in no remarkable findings, which, according
to Dr. Robitaille, can be consistent with the history of alleged
sexual assaults provided by F.C. Specifically, Dr. Robitaille
testified “you can have unwanted intercourse, and you can have
everything from not a scratch to the person being dead and
everything in between, so, yes, you can have no apparent injury, no
bruising, no lacerations, and still have had unwanted intercourse.”
(Tr. 282.)
Dr. Robitaille also testified that F.C. reported
consensual sexual activity occurred on the afternoon of January 4,
2013.
Testing of F.C.’s bra and shirt were positive for creatinine, a
compound found in urine. Seminal fluid was identified in both
F.C.’s vaginal samples and pubic hair standard. Additionally, trace
amounts of seminal fluid were identified in FC.’s anal samples and
pubic hair combings. The DNA profiles extracted from the vaginal
and anal samples were consistent with FC and appellant. The
DNA profile taken from FC’s bra were consistent with both F.C.
and appellant, while the DNA profile taken from F.C.’s shirt was
consistent only with appellant.
When asked what things could impact the lab’s ability to get
positive results on the tests conducted in this case, Lindsay Main,
forensic biologist at the Bureau of Criminal Identification and
Investigation (“BCl”), testified, “[i]f the victim has showered,
changed clothes, used the restroom, those all can inhibit or deplete
the foreign DNA source.” (Tr. 330.) Main also testified that the
longer the time frame between an alleged sexual assault and when
samples are taken can inhibit the chances of finding foreign DNA.
Sarah Smith, DNA analyst at BCI, testified that she could not
opine as to how the DNA got there as the “testing does not show a
time frame or how anything appears.” (Tr. 345.)
After the prosecution rested, appellant testified on his own behalf.
According to appellant, he and F.C. engaged in consensual sexual
relations in the afternoon prior to the incident. Appellant testified
4

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 5 of 18 PAGEID #: 908

-that-shortlv_thereafter.JW.J. called and was upset with appellant
because appellant told their sister that W.J. was not watching her
son as he was supposed to be. Appellant testified that he hung up
on W.J. and then W.J. began texting appellant. According to
appellant, W.J. informed appellant through text messaging that he
and F.C. had an affair. Appellant explained that he told the
children to go upstairs and then he and F.C. proceeded to the
basement to talk. Appellant denied grabbing F.C. or forcing her
down the stairs. Appellant testified that, after F.C. admitted to
having sex with W.J., appellant struck F.C. and then urinated on
her to keep himself from hitting her again. Appellant testified:
I pushed her. After I struck her, I urinated on her.
I’m embarrassed. I’m ashamed. But I did it. I
didn’t want to hit her again. I was so hurt. I was
angry, and I didn’t want to touch her. And that’s
what 1 did. That’s no excuse, that that’s what I did.
(Tr. 372.)
According to appellant, after they left the basement, he called his
two sisters and his cousin to tell them about the affair. F.C. then
got cleaned up, and the two began talking in the bedroom.
Appellant described himself as very calm at this time, and
appellant testified that F.C. apologized for what she had done.
Appellant also testified that he told F.C. the relationship was over
and that he wanted custody of K.J. Appellant then took $15 from
F.C’s pants’ pocket and left to get cigarettes. Shortly after he
returned, the police arrived. Appellant denied telling F.C. to
remove her clothes, denied attempting anal intercourse, denied
forcing vaginal intercourse, and denied forcing F.C. to perform
oral sex on him.
In a multi-count indictment rendered on March 11, 2013, appellant
was indicted for two counts of rape, in violation of R.C. 2907.02,
one count of attempted rape, in violation of R.C. 2923.02 as it
relates to the R.C. 2907.02, two counts of kidnapping, in violation
of RC. 2905.01, one count of robbery, in violation of R.C.
2911.02, one count of abduction, in violation of R.C. 2905.02, one
count of domestic violence, in violation of R.C. 2919.25. Six of
the indicted counts included a specification alleging appellant was
a repeat violent offender (“RVO”) based on his 2002 convictions
for aggravated burglary and felonious assault. After deliberations,
the jury returned a verdict of not guilty on one count of robbery
and the lesser-included offense of theft, not guilty on one count of
kidnapping, and guilty on all remaining charges. Thereafter, the
5

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 6 of 18 PAG El D #: 909

trial court found guilty of the RVO specifications. A sentencing
hearing was held, and appellant was sentenced to an aggregate
prison term of 39 years with 227 days of jail-time credit.
(ECF No. 9-1, PagelD# 68-73.) Through counsel, Petitioner raised the following assignments of
error:
[I.] Appellant was denied a fair trial by the introduction of
inflammatory, emotional testimony.
[II.] The judgment of the trial court is against the manifest weight
of the evidence.
[III.] The trial court committed plain error in imposing consecutive
sentences without making the necessary findings in violation of
RC 2929.14(C) (4).
[IV.] The trial court committed plain error in imposing an
aggregate sentence of thirty nine years that did not satisfy the
principles set forth in R.C. 2929.11(B).
(PagelD# 73.) Petitioner raised the following additional pro se assignments of error:
[V.] The Trial Court abused its discretion allowing the D.N.A. to
be entered as evidence in violation of Rules of Evidence 402 and
403(A), which violated Appellant’s Fourteenth Amendment right
to due process and to equal protection under the law.
[VI.] Trial Court violated Appellant’s Fifth Amendment Right to
the Grand Jury when it amended the indictment under Rule 7(D).
(PagelD# 74.) On June 17, 2014, the appellate court overruled Petitioner’s first, second, fifth,
and sixth assignments of error, and sustained his third assignment of error, rendering the fourth
assignment of error moot, affirming in part and reversing in part the judgment of the trial court,
and remanding the case for re-sentencing. (PagelD# 84-85.) On July 22, 2014, the appellate
court denied Petitioner’s motion for reconsideration. (PagelD# 240.) Petitioner filed a timely
appeal with the Ohio Supreme Court. He asserted that the trial court abused its discretion by
permitting DNA evidence and violated his right to a grand jury by amendment of the indictment.
6

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 7 of 18 PAG El D #: 910

(PageJD#-246.) On October 8, 2014, the Ohio Supreme Court declined to accept jurisdiction of
the appeal pursuant to S.Ct.Prac.R. 7.08(B) (4). (PagelD# 255.)
On December 14, 2014, the trial court re-sentenced Petitioner to an aggregate term of 39
years incarceration (PagelD# 258-59.) Petitioner filed a timely appeal (PagelD# 261); however,
he thereafter filed a motion to dismiss the appeal. (PagelD# 264.) On March 18, 2015, the
appellate court granted Petitioner’s motion for voluntary dismissal of the appeal. (PagelD# 266.)
On March 19, 2015, Petitioner filed the instant pro se petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254. He asserts that the trial court abused its discretion by permitting
admission of DNA evidence, in violation of Ohio evidentiary rules, his right to due process, and
equal protection (claim one); and that he was denied his right to grand jury findings because the
trial court improperly amended the indictment under Ohio Criminal Rule 7(D) (claim two). It is
the position of the Respondent that Petitioner’s claims fail to provide a basis for relief.
Standard of Review
Petitioner seeks habeas relief under 28 U.S.C. § 2254. The Antiterrorism and Effective
Death Penalty Act (“AEDPA”) sets forth standards governing this Court’s review of state-court
determinations. The United State Supreme Court recently described AEDPA as “a formidable
barrier to federal habeas relief for prisoners whose claims have been adjudicated in state court”
and emphasized that courts must not “lightly conclude that a State’s criminal justice system has
experienced the ‘extreme malfunction’ for which federal habeas relief is the remedy.” Burt v.
Titlow,---- U.S.

•, 134 S.Ct. 10, 16 (2013) (quoting Harrington v. Richter, 562 U.S.

86 (2011)); see also Renico v. Lett, 559 U.S. 766, 773 (2010) (“AEDPA . . . imposes a highly
defer ential standard for evaluating state-court rulings, and demands that statecourt decisions be
given fhe benefit of the doubt.” (internal quotation marks, citations, and footnote omitted)).

7

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 8 of 18 PAGEID #: 911

The factual findings of the state appellate court are presumed to be correct. 28 U.S.C. §
2254(e)(1) provides:
In a proceeding instituted by an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State
court, a determination of a factual issue made by a State court shall
be presumed to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by clear and convincing
evidence.
“Under AEDPA, a writ of habeas corpus should be denied unless the state court decision was
contrary to, or involved an unreasonable application of, clearly established federal law as
determined by the Supreme Court, or based on an unreasonable determination of the facts in light

I

of the evidence presented to the state courts.” Coley v. Bagley, 706 F.3d 741, 748 (6th Cir. 2013)
(citing Slagle v. Bagley, 457 F.3d 501, 513 (6th Cir. 2006)); 28 U.S.C. § 2254(d)(1) (a petitioner
must show that the state court’s decision was “contrary to, or involved an unreasonable
f

application of, clearly established federal law”); 28 U.S.C. § 2254(d)(2) (a petitioner must show
that the state court relied on an “unreasonable determination of the facts in light of the evidence
i.

presented in the State court proceeding”). The United States Court of Appeals for t|e Sixth
Circuit explained these standards as follows:
A state court’s decision is “contrary to” Supreme Court precedent
if (1) “the state court arrives at a conclusion opposite to that
reached by [the Supreme] Court on a question of law[,]” or (2) “the
state court confronts facts that are materially indistinguishable
from a relevant Supreme Court precedent and arrives” at a
different result. Williams v. Taylor, 529 U.S. 362, 405, 120 S.Ct.
1495, 146 L.Ed.2d 389 (2000). A state court’s decision is an
“unreasonable application” under 28 U.S.C. § 2254(d)(1) if it
“identifies the correct governing legal rule from [the Supreme]
Court’s cases but unreasonably applies it to the facts of the
particular .. . case” or either unreasonably extends or unreasonably
refuses to extend a legal principle from Supreme Court precedent
to a new context. Id. at 407, 529 U.S. 362, 120 S.Ct. 1495, 146
L.Ed.2d 389.

8

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 9 of 18 PAGEID #: 912

Coley, 706 F.3d at 748-49. The burden of satisfying the standards set forth in § 2254 rests with
the petitioner. Cullen v. Pinholster, 563 U.S.170, 181 (2011).
“In order for a federal court to find a state court’s application of [Supreme Court
precedent] unreasonable, . . . [t]he state court’s application must have been objectively
unreasonable,” not merely “incorrect or erroneous.” Wiggins v. Smith, 539 U.S. 510, 520-21,
(2003) (internal quotation marks omitted) (citing Williams v. Taylor, 529. U.S. at 409 and
Lockyer v. Andrade, 538 U.S. 63, 76 (2003)); see also Harrington v. Richter, 562 U.S. at 102
(“A state court’s determination that a claim lacks merit precludes federal habeas relief so long as
“‘fairminded jurists could disagree’ on the correctness of the state court’s decision.” (quoting
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). In considering a claim of “unreasonable
application” under § 2254(d) (1), courts must focus on the reasonableness of the result, not on
the reasonableness of the state court’s analysis. Holder v. Palmer, 588 F.3d 328, 341 (6th Cir.
2009) (“‘[0]ur focus on the ‘unreasonable application’ test under Section 2254(d) should be on
the ultimate legal conclusion that the state court reached and not whether the state court
considered and discussed every angle of the evidence.’" (quoting Neal v. Puckett, 286 F.3d 230,
246 (5th Cir. 2002) (en banc))); see also Nicely v. Mills, 521 F. App’x 398, 403 (6th Cir. 2013)
(considering evidence in the state court record that was “not expressly considered by the state
court in its opinion” to evaluate the reasonableness of state court’s decision). Relatedly, in
evaluating the reasonableness of a state court’s ultimate legal conclusion under § 2254(d)(1), a
court must review the state court’s decision based solely on the record that was before it at the
time it rendered its decision. Pinholster, 563 U.S. at 181. Put simply, “review under § 2254(d)(1)
focuses on what a state court knew and did.” Id. at 182.

9

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 10 of 18 PAG El D #: 913

Claim One
In claim one, Petitioner asserts that he was denied a fair trial due to admission of DNA
evidence against him in view of a stipulation that the alleged victim and the defendant had
engaged in consensual sex within 72 hours of recovery of the DNA, making such evidence
irrelevant and unfairly prejudicial. Petitioner complains that, although Ohio law required the
trial court to hold a hearing in chambers three days prior to trial to resolve the admissibility of
such evidence, the trial court waited until the first day of trial to hold that the DNA evidence
would be admissible. (PagelD# 8.) Petitioner asserts that admission of the DNA evidence
violated Ohio evidentiary rules. (ECF No. 10, PagelD# 849.) He complains that the trial court
abused its discretion. (PagelD# 855.) According to Petitioner, admission of DNA evidence
denied him due process and his right to equal protection and constituted an arbitrary and
unreasonable enforcement of Ohio’s rape shield law. (PagelD# 858.)
The state appellate court rejected Petitioner’s claim as follows:
[Ajppellant contends the trial court erred in admitting DNA
evidence because the evidence was both irrelevant and prejudicial.
Specifically, appellant asserts that, because F.C. admitted to having
consensual sexual conduct within 72 hours of the alleged sexual
assaults, the DNA evidence is inadmissible since “[tjhere is no
way to prove that the D.N.A. found [on] the victim came from the
alleged sexual assault.” (Supplemental Brief, 2.)
To be relevant and therefore admissible, evidence must have a
tendency “to make the existence of any fact that is of consequence
to the determination of the action more probable or less probable
than it would be without the evidence.” Evid. R. 401. See also
Oakwood v. Makar, 11 Ohio App.3d 46, 50 (8th Dist. 1983). Even
if the evidence is relevant, it must be excluded under Evid.R.
403(A) “if its probative value is substantially outweighed by the
danger of unfair prejudice, of confusion of the issues, or of
misleading the jury.” However, despite the mandatory terms of
Evid. R. 403(A), the appropriate standard of review is the abuse of
discretion standard. The Supreme Court of Ohio has interpreted
Evid.R. 403(A) to mean that “‘[t]he trial court has broad discretion
10

.

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 11 of 18 PAGEID #: 914

it has clearly
irLthe.admission * * * of evidence and unless
________
_____abused
___
its discretion and the defendant has been materially prejudiced
thereby, this court should be slow to interfere.’14 Maurer at 265,
quoting State v. Hymore, 9 Ohio St.2d 122, 128 (1967).
In the case sub judice, appellant asked the trial court to find the
seminal fluid and DNA evidence inadmissible as irrelevant and
prejudicial. However, as the trial court explained, “it’s a matter of
truth and veracity whether the act occurred. The semen would be
there anyway from the previous act. * * sfs So, you know, I don’t
see where you’re prejudiced in any way, okay? I’ll overrule that.”
(Tr. 42.)
We cannot say the presence of appellant’s seminal fluid observed
in the testing of F.C.’s vaginal and anal samples is irrelevant as it
is consistent with F.C.’s testimony that appellant attempted anal
intercourse and successfully performed vaginal intercourse with
• ejaculation. While the seminal fluid could have been the result of
consensual sexual conduct with appellant that occurred either the
morning or [] day prior to the alleged sexual assaults, there was
testimony to this effect, and we fail to perceive an abuse of
discretion or any prejudice resulting from admission of the DNA
evidence.
Appellant’s argument is more aptly categorized as a challenge to
the weight of the evidence rather than to evidence admissibility.
See State v. Pierce, 64 Ohio St.3d 490 (1992) (questions regarding
reliability of DNA evidence in a given case go to the weight of the
evidence rather than to its admissibility); State v. Breeze, 10th Dist.
No. 92AP-258 (Nov. 24, 1992) (argument that DNA evidence
being used to exclude sources of blood rather than to include them
went to the weight of the evidence, not to its admissibility based on
relevance). There was testimony from Detective Bobbitt, Main,
and Smith indicating that, though appellant’s seminal fluid and
DNA were observed in the vaginal and anal samples of F.C., the
tests could not determine how or when the DNA came to be there
or whether it was the result of consensual sexual conduct or a
forced sexual assault as alleged by F.C. Whether or not the alleged
sexual assaults occurred throughout the evening hours of January
5, 2013 was one of the issues the jury was tasked with determining.
While appellant denied any sexual conduct during this time, F.C.
described three instances of unwanted sexual conduct, As
discussed in our disposition of appellant’s second assignment of
error, a conviction is not against the manifest weight of the
evidence merely because the jury believed the prosecution’s
testimony. Anderson.
11

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 12 of 18 PAGEID #: 915

Upon review, we find no error in the admission of the DNA
evidence^]
(ECF No. 9-1, PagelD# 81-82.)
To the extent Petitioner’s claim implicates the alleged violation of state evidentiary rules,
or state law, it fails to present an issue warranting federal habeas corpus relief. 28 U.S.C. §
2254(a). ^As a general matter, errors of state law, especially the improper admission of evidence,
(do not provide grounds for habeas corpus relief. Estelle v. McGuire, 502 U.S. 62 (1991); Giles
v. Schotten, 449 F.3d 698, 704 (6th Cir. 2006). |To be entitled to habeas relief, a petitioner must
demonstrate that an evidentiary ruling violated more than a state rule of evidence or procedure.
In order to prevail, a petitioner must show that the evidentiary ruling was “so egregious that it
resulted in a denial of fundamental fairness.” Giles, 449 F.3d at 704 (citing Baze v. Parker, 371
F.3d 310, 324 (6th Cir. 2004)). Stated differently, “‘[e]rrors by a state court in the admission of
evidence are not cognizable in habeas proceedings unless they so perniciously affect the
prosecution of a criminal case as to deny the defendant the fundamental right to a fair trial.’”
Biros v. Bagley, 422 F.3d 379, 391 (6th Cir. 2006) (citing Roe v. Baker, 316 F.3d 557, 567 (6th
Cir. 2002)). A state court evidentiary ruling does not violate due process unless it “offend[s]
some principle of justice so rooted in the traditions and conscience of our people as to be ranked
as fundamental.’” Giles, 449 F.3d at 704 (citing Coleman v. Mitchell, 268 F.3d 417, 439 (6th
Cir. 2001)). For the reasons discussed by the state appellate court, the record fails to reflect such
circumstances here.
Petitioner argues that admission of DNA evidence was constitutionally prohibited,
because it constituted unduly suggestive and unreliable identification evidence of guilt. See
Supplementary Argument to Ground One (ECF No. 14.) Referring to McDaniel v. Brown, 558

12

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 13 of 18 PAG El D #: 916

U.S. 120, 135 (2010) (raising same argument), Petitioner argues that the state appellate court’s
decision contravened Manson v. Brathwaite, 432 U.S. 98 (1977). Petitioner also refers, inter
alia, to Carey v. Musladin, 549 U.S. 70 (2006) (the wearing of buttons displaying the victim’s
image by victim’s family during trial did not deprive defendant of constitutionally fair trial),
Colorado v. Connelly, 479 U.S. 157, 167 (1986) (holding that “coercive police activity is a
necessary predicate to the finding that a confession is not ‘voluntary’ within the meaning of the
Due Process Clause of the Fourteenth Amendment.”), Lisenba v. People of State of California,
314 U.S. 219, 236 (1941) (regarding whether due process was violated by admission of
defendant’s allegedly coerced confession), and United States v. Lovasco, 431 U.S. 783 (1977)
(applying the Sixth Amendment right to a speedy trial based on pre-indictment delay), in support
of his claim. (PagelD# 901.) However, Petitioner failed to exhaust this issue because he never
raised a federal constitutional claim in the Ohio Court of Appeals.
In order to satisfy the exhaustion requirement in habeas corpus, a petitioner must fairly
present the substance of each constitutional claim to the state courts as a federal constitutional
claim. Anderson v. Harless, 459 U.S. 4, 6 (1982); Picard v. Connor, 404 U.S. 270, 275 (1971).
Although the fair presentment requirement is a rule of comity, not jurisdiction, see Castille v.
Peoples, 489 U.S. 346, 349 (1989); O’Sullivan v. Boerckel, 526 U.S. 838, 844-45 (1999), it is
rooted in principles of comity and federalism designed to allow state courts the opportunity to
correct the State’s alleged violation of a federal constitutional right that threatens to invalidate a
state criminal judgment. In the Sixth Circuit, a petitioner can satisfy the fair presentment
requirement in any one of four ways: (1) reliance upon federal cases employing constitutional
analysis; (2) reliance upon state cases employing federal constitutional analysis; (3) phrasing the
claim in terms of constitutional law or in terms sufficiently particular to allege a denial of a

13

“

Case: 2:15-cv-00971~JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 14 of 18 PAG ElD #: 917

specific constitutional right; or (4) alleging facts well within the mainstream of constitutional
law. McMeans v. Brigano, 228 F.3d 674, 681 (6th Cir. 2000). Further, general allegations of the
denial of a constitutional right, such as the right to a fair trial or to due process, are insufficient to
satisfy the “fair presentment” requirement. Id.
Here, Petitioner argued generally that the trial court’s ruling denied him equal protection
and due process. In support of this argument, however, he referred solely to state evidentiary
rules and state law. (See ECF No. 9-1, PagelD# 193-95; 228.) He did not refer to any federal or
state cases relying on federal law that would have alerted the state appellate court to the nature of
an argument under Manson v. Brathwaite, or the Equal Protection Clause. Further, he has failed
to establish cause for his failure to present such federal claim to the state courts. To the extent
that Petitioner attempts to present an issue of federal constitutional magnitude, he has thereby
waived this claim for federal habeas corpus review.
Claim Two
In claim two, Petitioner asserts that the trial court violated his right to “grand jury
findings” and to indictment by a grand jury due to the amendment of the indictment to delete
repeat violent offender specifications from Counts 7 and 8, which charged him with abduction
and domestic violence, based on an apparent typographical error. (PagelD# 11; ECF No. 10,
PagelD# 863.) Petitioner claims that the trial court thereby denied him due process and violated
Rule 7(D) of the Ohio Rules of Criminal Procedure, constituting “structural error.” (ECF No.
10, PagelD# 860, 865.) According to Petitioner, he thereby was denied adequate notice of the
charges against him. (PagelD# 866.)
The state appellate court rejected Petitioner’s claim as follows:
[Ajppellant contends the trial court erred when it granted the
prosecution’s request to amend the indictment to remove the RVO
14

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 15 of 18 PAG El D #: 918

.specification from Count 7 charging abduction and Count 8
charging domestic violence.
The transcript indicates that, prior to trial, the prosecutor noted the
indictment contained a typographical error as it mistakenly
included the RVO specification language on the charges for
abduction and domestic violence. Therefore, the prosecutor asked
that such language be deleted. Appellant’s counsel indicated there
was no objection to the deletion of the specifications from Counts
7 mad 8. At the beginning of the sentencing hearing, appellant’s
counsel stated that appellant believed the amendment to the
indictment was improper because the amendment changed the
name and identity of the offenses charged. The trial court rejected
appellant’s argument and proceeded to sentencing.
Pursuant to Crim.R. 7(D), a court may, before, during or after a
trial, amend an indictment due to any variance with the evidence,
provided no change is made in the name or identity of the crime
charged. A trial court’s decision to permit the amendment of an
indictment is reviewed under an abuse-of-discretion standard.
State v. Smith, 10th Dist. No. 03AP-1157, 2004-Ohio-4786, f 10.
The term “abuse of discretion” connotes more than an error of law
or judgment; it implies that the court’s attitude is unreasonable,
arbitrary or unconscionable. Blakemore at 219. Furthermore,
when the name or identity of the crime charged is not changed by
the amendment, a defendant on appeal must show that the
amendment prejudiced his defense for there to be reversible error.
Smith at 10.
In appellant’s case, the indictment was amended to delete the RVO
specification language from Counts 7 and 8 of the indictment.
Count 7 charged appellant with abduction as a third-degree felony,
and Count 8 charged appellant with domestic violence as a firstdegree misdemeanor. Though appellant argues to the contrary,
neither the name nor identity of the crimes charged, i.e., thirddegree felony abduction and first-degree misdemeanor domestic
violence, were changed as a result of deleting the RVO
specification language.
Because the name and identity of the crimes charged were not
changed by the amendment, in accordance with Smith, appellant
must show that the amendment prejudiced his defense. This
appellant has failed to do. Removal of the RVO specifications
from counts 7 and 8 actually benefitted appellant. Moreover,
because the RVO specification remained as to other counts in the
indictment, appellant has not argued the amendment in any way
15

Case: 2:15-cv~00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 16 of 18 PAGEID #: 919

prejudiced his ability to defend the charges against him. Finally, to
the extent appellant asserts in this assigned error that the
amendment interfered with the “Grand Jury’s intent when it
handed down the R.V.O[.] specification on count 7,” we find no
merit to said assertion. (Supplemental Brief, 4.)
(ECF No. 9-1, PagelD# 82-83.)

.

Again, to the extent that Petitioner raises a claim regarding the alleged violation of state
law or evidentiary rules, such claim fails to provide a basis for federal habeas corpus relief.
Further, “[i]t is well settled that the federal guarantee of a grand jury indictment does not apply
to the states.” Segines v. Tibbals, 2012 WL 5471802, at *9 (N.D. Ohio Sept. 13, 2012) (citing
Koontz v. Glossa, 731 F.2d 365, 369 (6th Cir. 1984) (internal citation omitted)).
Although the State of Ohio may require indictment by a grand jury
pursuant to its own constitution, any violation of such right is a
matter of state law. The U.S. Supreme Court has stated many
times that “federal habeas corpus relief does not lie for errors of
state law.” Lewis v. Jeffers, 497 U.S. 764, 780, 110 S.Ct. 3092, 111
L.Ed.2d 606 (1990); see also Pulley v. Harris, 465 U.S. 37, 41,
104 S.Ct. 871, 79 L.Ed.2d 29 (1984). To be entitled to relief in
federal habeas corpus, a petitioner must establish that there has
been an infringement of a right guaranteed under the United States
Constitution. Clemmons v. Sowders, 34 F.3d 352, 357 (6th
Cir. 1994).
Therefore, even if Ohio requires indictment by a grand, jury similar
to the federal constitutional right in federal criminal prosecutions,
the violation of the state right to a grand jury indictment in Ohio,
and all the procedural safeguards appurtenant thereto, does not
transform the state right into a federal constitutional right.
Id.
Procedural due process requires that the indictment: “(1) contains the elements of the
charged offense, (2) gives the defendant adequate notice of the charges, and (3) protects the
defendant against double jeopardy.” Joseph v. Coyle, 469 F.3d 441, 463 (6th Cir. 2006) (quoting
Valentine v. Konteh, 395 F.3d 626, 631 (6th Cir. 2005)); see also Cole v. Arkansas, 333 U.S.

16

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 17 of 18 PAGEID #: 920

196, 20 (1948). The law is clear that “[bjeyond notice, a claimed deficiency in a state criminal
indictment is not cognizable on federal collateral review.” Roe v. Baker, 316 F.3d 557, 570 (6th
Cir. 2002) (citing Mira v. Marshall, 806 F.2d 636, 639 (6th Cir. 1986)). The Constitution only
requires that whatever charging method a state employs, the state must give a defendant fair
notice of the charges to permit adequate preparation of his defense, so “that the offense be
described with some precision and certainty so as to apprise the accused of the crime with which
he stands charged.” Olsen v. McFaul, 843 F.2d 918, 930 (6th Cir. 1988). Here, the indictment
provided Petitioner fair notice of the charge against him which was sufficient to enable him
adequately to prepare a defense. The undersigned rejects Petitioner’s contention that correcting a
typographical error violated the Constitution.
Recommended Disposition
Therefore, the Magistrate Judge RECOMMENDS that this action be DISMISSED.
Procedure on Objections
If any party objects to this Report and Recommendation, that party may, within fourteen
days of the date of this Report, file and serve on all parties written objections to those specific
proposed findings or recommendations to which objection is made, together with supporting
authority for the objection(s). A judge of this Court shall make a de novo determination of those
portions of the report or specified proposed findings or recommendations to which objection is
made. Upon proper objections, a judge of this Court may accept, reject, or modify, in whole or in
part, the findings or recommendations made herein, may receive further evidence or may
recommit this matter to the magistrate judge with instructions. 28 U.S.C. § 636(b) (1).
The parties are specifically advised that failure to object to the Report and
Recommendation will result in a waiver of the right to have the district judge review the Report

17

Case: 2:15-cv-00971-JLG-EPD Doc #: 15 Filed: 09/06/16 Page: 18 of 18 PAGEID #: 921

and Recommendation de novo, and also operates as a waiver of the right to appeal the decision of
the District Court adopting the Report and Recommendation. See Thomas v. Am, 474 U.S. 140
(1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

s/ Elizabeth A. Preston Dcovers
Elizabeth A. Preston Deavers
United States Magistrate Judge

Date: September 6, 2016

18

Additional material
from this filing is
available in the
Clerk's Office.

